CERTIFICATE OF SERVICE
In accordance with the Supreme Court of the United States Procedure I certify that
a copy of the Petition for Rehearing of my Writ of Certiorari as served to
Respondent's counsel
Rick Thompson
State Bar No. 00788537
finompsQncgJcipsiawgroup.CQm
DURHAM, PITTARD & SPALDING, LLP
P.O. Box 224626
Dallas, Texas 75222
Telephone: 214 946-8000
Facsimile: 214.9 946.8433
By certified mail, email, and regular mail.

Subrina Brenham and Subrina Tax Services
Pro Se

